\

No.

In The

®mteb States? limprane Court
DR. LILLIE M. COLEY
Petitioner,
v.
NEW JERSEY SUPREME COURT
Respondent

PROOF OF SERVICE

I, do swear or declare that on this date, April 28, 2021 as required by Supreme Court Rule 29 I
have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
New Jersey Supreme Court -25 W. Market, 8th Floor, Trenton, NJ 08825
New Jersey Attorney General - Gurbir Grewal, 25 W. Market, 8th Floor , Trenton, NJ 08625

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 28, 2021
Cc: Wanda Satterthwaite c/o Marlene Santiago, Rachael A. Honig New Jersey District Attorney
Office, Philadelphia Attorney General, Philadelphia District Attorney Office, NJ Senators Nilsa
Cruz-Perez & Fred H. Madden Jr, NJ Governor
_____
20

RECEIVED
MAY - 6 2021

